NO:

IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY CARVER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

Jacqueline E. Shapiro
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. 305-403-8207
shapiro.miamilaw@gmail.com
Counsel for Petitioner

QUESTION PRESENTED
In Lee v. United States, 137 S.Ct. 1958, 1966 (2017), the Court held that a per
se rule barring relief for ineffectiveness of plea counsel in the absence of a likelihood
of a better outcome for the defendant at trial is not appropriate and that “a defendant’s
decisionmaking ... may not turn solely on the likelihood of conviction after trial.” The
Court explained that where counsel’s errors cause the defendant to misapprehends the
consequences of pleading guilty and there is a reasonable probability that those
consequences were so adverse as to cause the defendant to reject the plea, relief may
be warranted. Id. at 1967–68. Petitioner moved under 28 U.S.C. § 2255 to vacate his
conviction alleging that but for plea counsel’s misrepresentations regarding whether
Petitioner’s conduct violated the law, Petitioner would have believed himself actually
innocent of the charge and thus unwilling to falsely admit guilt. The district court
denied relief because Petitioner failed to show a likelihood of prevailing at trial.
The question presented is:
Where plea counsel erroneously convinces a defendant to believe that he is guilty
of an offense, may the guilty-pleading defendant obtain relief from the plea based on
counsel’s ineffectiveness, even if the defendant is unable to show a likelihood of
prevailing at trial, if the defendant can show at an evidentiary hearing that he would
not falsely have admitted guilt?

i

INTERESTED PARTIES
The are no parties interested in the proceeding other than those named in the
caption of the appellate decision.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTERESTED PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY AND OTHER PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The Sixth Amendment guarantee of effective assistance of counsel is
violated where deficient advice of counsel convinces the defendant of his
guilt of the offense, and but for the deficient performance, the defendant,
believing himself innocent, would not have entered the plea . . . . . . . . . . . . 6
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit, Carver v.
United States, No. 19-14615 (June 17, 2020) . . . . . . . . . . . . . . . . . . . . . App. 1
Decision of the Court of Appeals for the Eleventh Circuit, Carver v.
United States, No. 19-14615 (Oct. 8, 2020) . . . . . . . . . . . . . . . . . . . . . . . App. 2
Decision of the Court of Appeals for the Eleventh Circuit, Carver v.
United States, No. 14-15769 (Jan. 12, 2018) . . . . . . . . . . . . . . . . . . . . . . App. 3
Order Denying Motion to Vacate Conviction, United States District
Court, S.D. Fla., Carver v. United States, No. 08-cr-14003-JEM (Sept. 19,
2019) (772 F. App’x 906) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 12

iii

Report and Recommendation on Motion to Vacate Conviction, United
States District Court, S.D. Fla., Carver v. United States, No.
08-cr-14003-JEM (Aug. 29, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 14
Petitioner’s Motion for Certificate of Appealability filed in Carver v.
United States, 11th Cir. No. 19-14615 (Oct. 8, 2020) . . . . . . . . . . . . . . App. 31
Petitioner’s Motion for Reconsideration filed in Carver v. United States,
11th Cir. No. 19-14615 (Oct. 8, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . App. 54

iv

TABLE OF AUTHORITIES
CASES:
Hill v. Lockhart, 474 U.S. 52 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7
Lee v. United States, 137 S.Ct. 1958 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 5, 6, 7
Roe v. Flores-Ortega, 528 U.S. 470 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Tovar Mendoza v. Hatch, 620 F.3d 1261 (10th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 8
United States v. Carver, 348 F. App’x 449 (11th Cir. 2009) . . . . . . . . . . . . . . . 4, 5, 7
United States v. Carver, 422 F. App’x 796 (11th Cir. 2011) . . . . . . . . . . . . . . . . . . . 4
United States v. Tolliver, 800 F.3d 138 (3d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . . 7
STATUTORY AND OTHER AUTHORITY:
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 6
18 U.S.C. § 2260A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 2422(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4
28 U.S.C. § 2253 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2255 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 4, 5
SUP. CT. R. 13.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

v

PETITION FOR WRIT OF CERTIORARI
Timothy Carver respectfully petitions the Supreme Court of the United States
for a writ of certiorari to review the decision of the United States Court of Appeals for
the Eleventh Circuit, entered in case number 19-14615 in that court on June 17, 2020,
Carver v. United States, denying Petitioner’s motion for a certificate of appealability.
OPINION BELOW
A copy of the decision of the United States Court of Appeals for the Eleventh
Circuit is contained in the Appendix (App. 1) along with that court’s order denying
rehearing (App. 2).
STATEMENT OF JURISDICTION
Jurisdiction of this Court is invoked under 28 U.S.C. § 1255 and PART III of the
RULES OF THE SUPREME COURT OF THE UNITED STATES. The decision of the court of
appeals was entered on June 17, 2020, and rehearing was denied on October 8, 2020.
This petition is timely filed pursuant to SUP. CT. R. 13.1.
STATUTORY AND OTHER PROVISIONS INVOLVED
Petitioner intends to rely upon the following constitutional and statutory
provisions:
U.S. Const. amend. VI (Right to Counsel):
In all criminal prosecutions, the accused shall enjoy the right ... to have
the Assistance of Counsel for his defence.

1

28 U.S.C. § 2253(c):
(c)(1) Unless a circuit justice or judge issues a certificate of appealability,
an appeal may not be taken to the court of appeals from –
(A) the final order in a habeas corpus proceeding in which the
detention complained of arises out of process issued by a State
court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if
the applicant has made a substantial showing of the denial of a
constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate
which specific issue or issues satisfy the showing required by paragraph
(2).
STATEMENT OF THE CASE
On October 3, 2012, Petitioner filed a motion under 28 U.S.C. § 2255 to vacate
his sentence that resulted from a guilty plea proceeding and two separate trials, all
stemming from a single indictment charging him with one count of attempting to use
a computer and the internet to entice a minor in violation of 18 U.S.C. § 2422(b)
(“Count One”) and with one count of committing Count One while being required to
register as a sex offender in violation of 18 U.S.C. § 2260A (“Count Two”). App. 15–16.
The original § 2255 motion was referred to a magistrate judge who recommended
denying Petitioner’s motion, a recommendation that was adopted by the district court.
2

App. 18. Petitioner appealed the denial of his § 2255 motion, and the Eleventh Circuit
vacated the district court’s decision and remanded “with instructions to fully address”
his claims of ineffective assistance of counsel and resulting involuntariness of his guilty
pleas “in the first instance, and to hold an evidentiary hearing unless a full
consideration of these claims reveals that no hearing is required.” App. 11.
On remand, Petitioner filed a renewed § 2255 motion. App. 18. His motion was
again referred to a magistrate judge who in a Report and Recommendation (“Report”)
recommended denying Petitioner’s motion without holding an evidentiary hearing.
App. 29. Petitioner objected to the magistrate’s Report, but the district court adopted
the magistrate judge’s recommendation, denied Petitioner’s motion, and declined to
issue a certificate of appealability. App. 12. In the Eleventh Circuit, Petitioner sought
a certificate of appealability as to whether the court of appeals should reverse and
remand for the conducting of an evidentiary hearing on grounds raised in Petitioner’s
28 U.S.C. § 2255 motion, including: Petitioner’s claim of ineffective assistance of plea
counsel when he entered a plea of guilty to Count One, and that his guilty plea was
rendered involuntary by plea counsel’s misadvice regarding the elements of the offense.
App. 31. The Eleventh Circuit denied the request for a certificate of appealability.
App. 1.
Petitioner’s guilty plea to Count One of the superseding indictment was entered
on May 8, 2008; he proceeded to a bench trial on Count Two the same day. App. 15.
He was found guilty of Count Two and sentenced to a total of 360 months, consisting
of consecutive sentences of 240 months for Count One and 120 months for Count Two.
3

App. 16. Petitioner appealed and the Eleventh Circuit affirmed his conviction on
Count One, but vacated and remanded on Count Two because Petitioner had never
waived his right to a jury trial. United States v. Carver, 348 F. App’x 449, 450–452
(11th Cir. 2009). Petitioner was then convicted at a jury trial on Count Two, at which
his conviction of Count One was the principal evidence, and his conviction on Count
Two was affirmed on direct appeal. United States v. Carver, 422 F. App’x 796 (11th
Cir. 2011).
Petitioner’s § 2255 motion alleged that if had he been properly advised by plea
counsel, he would have proceeded to trial on Count One. App. 21–22. Specifically,
Petitioner alleged that his plea counsel misadvised him by not explaining to him the
elements of an attempt offense (Count One), specifically the intent requirement, under
18 U.S.C. § 2422(b). Id. He also alleged that plea counsel did not consult with him
regarding his defenses to the attempt charge. Petitioner explained that if plea counsel
had properly advised Petitioner of the elements of Count One, Petitioner would not
have believed himself to be guilty—he would have proceeded to trial because he did not
have the specific intent to entice a minor, and he was simply engaging in fantasy talk
with an undercover agent who was setting up a sting operation. The evidentiary
support for Petitioner’s belief included the unusual facts that the undercover agent had
to drive far outside of his jurisdiction to pick up Petitioner (who otherwise would not
have left or even met with the agent, much less proceeded beyond talk) and the agent
then provided Petitioner with incriminating objects in order to create the illusion that
Petitioner was actually trying to involve a minor in a sex crime.
4

Plea counsel’s failure to properly advise Petitioner on the elements of Count One
was compounded by the fact that the superseding indictment did not expressly state
the elements of an attempt offense, and the government’s summary of the elements of
the offense during the plea colloquy failed to adequately describe an attempt offense.
See Carver, 348 F. App’x at 450–452 (recognizing the errors in the plea colloquy and
superseding indictment, but holding that it did not require reversal on the basis of the
transcript record on direct appeal).
In denying § 2255 relief, the district court misinterpreted this Court’s decision
in Lee v. United States, 137 S.Ct. 1958 (2017), and created a prejudice analysis that
was not appropriate to the issue. The district court found that Lee creates two
categories of ineffective assistance of counsel, each with a separate prejudice analysis:
one where counsel misadvises a defendant regarding the consequences of pleading
guilty, and another where counsel’s error “affects a defendant’s likelihood of success
at trial.” App. 24 (district court concludes: “The second type of error—and the one that
is at issue here—affects a defendant’s likelihood of success at trial. ... Where the
prospect of success at trial is at issue, a defendant must show he would have been
better off going to trial.”). The district court erroneously concluded that Petitioner’s
claim that plea counsel misadvised him regarding the elements of the offense, falls into
the second (trial outcome likelihood) category and that Petitioner was not prejudiced
because he cannot show that he would have been better off going to trial. Id. at 24–25.

5

REASONS FOR GRANTING THE PETITION
The Sixth Amendment guarantee of effective assistance of
counsel is violated where deficient advice of counsel convinces
the defendant of his guilt of the offense, and but for the deficient
performance, the defendant, believing himself innocent, would
not have entered the plea.
The Eleventh Circuit’s decision rejecting Petitioner’s motion for certificate of
appealability merits issuance of a writ of certiorari. The deficient performance which
Petitioner alleged does not neatly fall into the narrow prejudice categories used by the
district court, and the district court’s failure to understand the scope of the prejudice
analysis set forth by this Court in Lee warranted the grant of a certificate of
appealability. Petitioner alleged, without contradiction, that counsel misadvised him
regarding the elements of the attempt offense, and that had he been properly advised,
Petitioner would not have believed himself to be guilty and thus would not have falsely
admitted guilt. Thus, regardless of his chance of success at trial, Petitioner would have
proceeded to trial because he could not, and should not, enter a guilty plea when he did
not believe himself to be guilty. Thus, the proper test for prejudice under Lee for
circumstances like Petitioner’s is whether there is a “‘reasonable probability that, but
for counsel’s errors, he would not have pleaded guilty and would have insisted on going
to trial.’” Lee v. United States, 137 S.Ct. 1958, 1965 (2017) (quoting Hill v. Lockhart,
474 U.S. 52, 59 (1985)). At the very least, jurists of reason could debate how Lee should
apply to the type of counsel ineffectiveness that Petitioner alleged, and this Court
should grant the writ in this case so that a certificate of appealability may issue.

6

Petitioner was prejudiced “by the ‘denial of the entire judicial proceeding . . . to
which he had a right.’” Lee, 137 S.Ct. at 1965 (quoting Roe v. Flores-Ortega, 528 U.S.
470, 483 (2000)). Petitioner’s decision to go to trial on Count Two showed that he was
not averse to going to trial even where there would be substantial difficulties proving
his innocence. An evidentiary hearing was necessary where nothing in the record
contradicted any claim made by Petitioner. Notably, plea counsel did not, insofar as
the record shows, in any way deny Petitioner’s claims, and the initial decision on
appeal from the plea confirmed errors in the statement of the elements at the plea
colloquy itself. See Carver, 348 F. App’x at 451 (“neither the superseding indictment
nor the government’s summary of the elements of the offense stated expressly the
elements of an attempt offense”).
Plea counsel’s misadvice to Petitioner cannot be determined without an
evidentiary hearing, and the record does not otherwise show that he is not entitled to
relief. See United States v. Tolliver, 800 F.3d 138, 141–42 (3d Cir. 2015) (requiring an
evidentiary hearing where record does not conclusively show that defendant was not
entitled to relief).
The impact of counsel’s advice on a defendant’s belief about their guilt or
innocence does not neatly fit into the two categories created by the district court in its
analysis of Lee.

Instead, the correct prejudice analysis is whether there is a

“‘reasonable probability that, but for counsel’s errors,’” Petitioner “‘would not have
pleaded guilty and would have insisted on going to trial.’” Lee, 137 S.Ct. at 1965
(quoting Hill v. Lockhart, 474 U.S. at 59). And there is contemporaneous evidence that
7

Petitioner would have chosen to go to trial: His decision to go to trial on Count Two of
the superseding indictment shows that he was not averse to going to trial even where
there would be substantial difficulties proving his innocence. See, e.g., Tovar Mendoza
v. Hatch, 620 F.3d 1261, 1269 (10th Cir. 2010) (finding a defendant’s guilty plea
involuntary on collateral review with the assistance of an evidentiary hearing).
CONCLUSION
For the foregoing reasons, the Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
JACQUELINE E. SHAPIRO, ESQ.
Counsel for Petitioner
Miami, Florida
March 2021

8

APPENDIX

APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit, Carver v.
United States, No. 19-14615 (June 17, 2020) . . . . . . . . . . . . . . . . . . . . . App. 1
Decision of the Court of Appeals for the Eleventh Circuit, Carver v.
United States, No. 19-14615 (Oct. 8, 2020) . . . . . . . . . . . . . . . . . . . . . . . App. 2
Decision of the Court of Appeals for the Eleventh Circuit, Carver v.
United States, No. 14-15769 (Jan. 12, 2018) . . . . . . . . . . . . . . . . . . . . . . App. 3
Order Denying Motion to Vacate Conviction, United States District
Court, S.D. Fla., Carver v. United States, No. 08-cr-14003-JEM (Sept. 19,
2019) (772 F. App’x 906) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 12
Report and Recommendation on Motion to Vacate Conviction, United
States District Court, S.D. Fla., Carver v. United States, No.
08-cr-14003-JEM (Aug. 29, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 14
Petitioner’s Motion for Certificate of Appealability filed in Carver v.
United States, 11th Cir. No. 19-14615 (Oct. 8, 2020) . . . . . . . . . . . . . . App. 31
Petitioner’s Motion for Reconsideration filed in Carver v. United States,
11th Cir. No. 19-14615 (Oct. 8, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . App. 54

Case: 19-14615

Date Filed: 06/17/2020

App. 1

Page: 1 of 1

USCA11 Case: 19-14615

Date Filed: 10/08/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14615-C
________________________
TIMOTHY WAYNE CARVER,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
Before: NEWSOM and LAGOA, Circuit Judges.
BY THE COURT:
Timothy Wayne Carver has filed a motion for reconsideration, pursuant to
11th Cir. R. 22-1(c) and 27-2, of this Court’s June 17, 2020, order denying a certificate of
appealability in his appeal of the district court’s denial of his renewed 28 U.S.C. § 2255 motion to
vacate, set aside, or correct his sentence. Upon review, Carver’s motion for reconsideration is
DENIED because he has offered no new evidence or arguments of merit to warrant relief.

App. 2

Case: 14-15769

Date Filed: 01/12/2018

Page: 1 of 9

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 14-15769
Non-Argument Calendar
________________________
D.C. Docket Nos. 2:12-cv-14353-JEM,
2:08-cr-14003-JEM-1
TIMOTHY WAYNE CARVER,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(January 12, 2018)
Before TJOFLAT, MARTIN, and NEWSOM, Circuit Judges.
PER CURIAM:
Timothy Wayne Carver, a federal prisoner, appeals the denial of his 28
U.S.C. § 2255 motion to vacate his convictions for attempting to use the internet to
entice a minor to engage in sexual activity, in violation of 18 U.S.C. § 2422(b)

App. 3

Case: 14-15769

Date Filed: 01/12/2018

Page: 2 of 9

(“Count One”), and committing that offense while required to register as a sex
offender, in violation of 18 U.S.C. § 2260A (“Count Two”). He argues the district
court erred by not addressing some of the claims in his § 2255 motion and in
denying his motion for an evidentiary hearing. After careful review, we vacate and
remand for further proceedings.
I.
According to the stipulation of facts from Carver’s guilty plea to Count One,
Carver communicated through an internet chat room with an undercover officer
who was posing as the father of a minor girl with mental impairments. Carver
eventually agreed to pay $70 and meet the undercover officer at a set location,
where the officer would pick up Carver and drive him to the girl so he could
engage in sexual activity with her. Carver went to the meeting with condoms and
the agreed-upon $70 and was arrested after he got in the officer’s car.
Carver pled guilty to Count One and proceeded to a bench trial on Count
Two. At his bench trial, Carver stipulated that he was convicted of the offense
described in Count One and that he had previously been convicted of a sex crime.
The judge found him guilty of Count Two. Carver appealed, arguing that his
guilty plea was invalid and that he’d never formally waived his right to a jury trial
on Count Two. This Court affirmed Carver’s plea on Count One, but remanded for
a jury trial on Count Two. A jury then found Carver guilty of Count Two. On
2

App. 4

Case: 14-15769

Date Filed: 01/12/2018

Page: 3 of 9

direct appeal of Carver’s Count Two conviction, his second appeal, this Court
affirmed.
Carver filed a § 2255 motion to vacate his sentence that raised three grounds
for relief. In Ground One, he claimed “ineffective assistance of counsel in relation
to jury trial.” He listed a number of counsel’s deficiencies: counsel’s failure to
advise him of his right to contest his guilt at trial; counsel’s failure to adequately
advise him regarding the stipulations of fact that led to the conviction; and
counsel’s failure to put on evidence that he did not specifically intend to entice a
minor to have sex. In Ground Two, Carver claimed “ineffective assistance of
counsel in relation to entry of a guilty plea,” arguing that his attorney failed to
advise him of the specific intent element of the offense charged in Count 1. He
said he did not intend to “persuade anyone of anything” and would not have pled
guilty if he understood the intent requirement. Finally, in Ground Three, Carver
claimed that his guilty plea for Count One was unknowing and involuntary because
it was based on a misunderstanding of the law and his defenses.
A magistrate judge issued a Report and Recommendation (“R&R”),
recommending that the district court deny Carver’s motion without an evidentiary
hearing. The magistrate judge wrote “[a]ll of the Movant’s arguments essentially
concern his decision to plead guilty to Count 1.” In effect, the magistrate judge
construed Ground One, which Carver titled “ineffective assistance of counsel in
3

App. 5

Case: 14-15769

Date Filed: 01/12/2018

Page: 4 of 9

relation to jury trial,” as a claim of actual innocence relating to his guilty plea. The
magistrate judge also did not address each separate allegation of ineffective
assistance. Carver objected, arguing that the R&R “fail[ed] to address the
principal issue raised by the § 2255 motion: ineffective assistance of trial counsel.”
Carver also argued that an evidentiary hearing was warranted for his ineffective
assistance of counsel claims. The district court overruled Carver’s objections,
adopted the R&R, and denied Carver’s § 2255 motion.
This appeal followed. We granted a certificate of appealability (“COA”) to
address the following issues:
[1] Whether the District Court misconstrued the claims asserted in
ground one of Mr. Carver’s § 2255 motion alleging the ineffective
assistance of Mr. Carver’s trial counsel, or violated Clisby v. Jones,
960 F.2d 925 (11th Cir. 1992) (en banc), by failing to properly
address those claims?
[2] Whether the District Court erred in denying all of Mr. Carver’s
claims without conducting an evidentiary hearing?
We address each issue in turn.
II.
In a proceeding on a 28 U.S.C. § 2255 motion to vacate, we review the
district court’s factual findings for clear error and its legal conclusions de novo.
Lynn v. United States, 365 F.3d 1225, 1232 (11th Cir. 2004) (per curiam). The
scope of review is limited to the issues specified in the COA. Murray v. United
States, 145 F.3d 1249, 1250–51 (11th Cir. 1998) (per curiam).
4

App. 6

Case: 14-15769

Date Filed: 01/12/2018

Page: 5 of 9

In Clisby v. Jones, we held that if a district court fails to address each claim
raised in a habeas petition, we “will vacate the district court’s judgment without
prejudice and remand the case for consideration of all remaining claims.” 960 F.2d
at 938; see also Rhode v. United States, 583 F.3d 1289, 1291 (11th Cir. 2009) (per
curiam) (applying Clisby to § 2255 motions). Under Clisby, our only role is to
determine whether a district court failed to address a claim; we do not address
whether the underlying claim is meritorious. Dupree v. Warden, 715 F.3d 1295,
1299 (11th Cir. 2013). To qualify for relief under Clisby, though, “[a] habeas
petitioner must present a claim in clear and simple language such that the district
court may not misunderstand it.” Id.
In addition, “the district court must develop a record sufficient to facilitate
our review of all issues pertinent to . . . the ultimate merit of any issues for which a
COA is granted.” Long v. United States, 626 F.3d 1167, 1170 (11th Cir. 2010)
(per curiam). When a district court summarily denies a § 2255 motion, we will
vacate and remand when “an adequate appellate review of the basis for the district
court’s decision requires something more than a mere summary denial.”
Broadwater v. United States, 292 F.3d 1302, 1304 (11th Cir. 2002) (per curiam).
Here, the district court erred by failing to address all of the claims in
Carver’s § 2255 motion. The magistrate judge read all of Carver’s arguments to
“essentially concern his decision to plead guilty to Count 1.” But Ground One of
5

App. 7

Case: 14-15769

Date Filed: 01/12/2018

Page: 6 of 9

Carver’s § 2255 motion specifically related to his trial on Count Two, not his
guilty plea on Count One. And because the magistrate judge construed Ground
One of Carver’s motion as “essentially one of actual innocence,” not ineffective
assistance of trial counsel, he did not analyze Carver’s claims of trial counsel’s
ineffectiveness under the framework set out in Strickland v. Washington, 466 U.S.
688, 104 S. Ct. 2052 (1984). In addition, the magistrate judge did not specifically
address some of Carver’s arguments in support of Ground One, including that his
trial counsel failed to investigate certain aspects of his case. A denial of those
arguments without discussion does not provide us with an adequate basis for
appellate review. See Broadwater, 292 F.3d at 1304.
Further, contrary to the government’s assertions, neither the wording of
Ground One nor the fact that Carver is counseled defeat his claims of Clisby error.
While Carver’s counseled petition is not afforded the liberal construction given to
pro se parties, taken together, his § 2255 motion and his objection to the R&R were
sufficiently clear to alert the district court that he had raised a claim for ineffective
assistance of trial counsel on Count Two that had not been addressed by the
magistrate judge. See Dupree, 715 F.3d at 1299. We therefore vacate and remand
for the district court to address in the first instance Carver’s claims for ineffective
assistance of trial counsel alleged in Ground One of his § 2255 motion.
III.
6

App. 8

Case: 14-15769

Date Filed: 01/12/2018

Page: 7 of 9

We review the denial of an evidentiary hearing for abuse of discretion.
Winthrop-Redin v. United States, 767 F.3d 1210, 1215 (11th Cir. 2014). An
evidentiary hearing must be held on a § 2255 motion to vacate “[u]nless the motion
and the files and records of the case conclusively show that the prisoner is entitled
to no relief.” 28 U.S.C. § 2255(b). “[I]f the petitioner alleges facts that, if true,
would entitle him to relief, then the district court should order an evidentiary
hearing and rule on the merits of his claim.” Aron v. United States, 291 F.3d 708,
714–15 (11th Cir. 2002) (quotation omitted). But if a petitioner’s claims “are
merely conclusory allegations unsupported by specifics, or if the record refutes the
applicant’s factual allegations or otherwise precludes habeas relief,” a district court
is not required to hold an evidentiary hearing. Allen v. Sec’y, Fla. Dep’t of Corr.,
611 F.3d 740, 745 (11th Cir. 2010) (quotations and citation omitted).
“To show that he is entitled to an evidentiary hearing on his ineffective
assistance of counsel claim, [Carver’s] § 2255 motion must allege facts that would
show (1) that counsel’s performance was deficient and (2) that the deficient
performance prejudiced the defense.” Griffith v. United States, 871 F.3d 1321,
1329 (11th Cir. 2017) (quotation omitted). When a defendant has pled guilty, he
can show deficient performance by demonstrating that his counsel did not provide
him “with an understanding of the law in relation to the facts, so that [he] may
make an informed and conscious choice” between pleading guilty and going to
7

App. 9

Case: 14-15769

Date Filed: 01/12/2018

Page: 8 of 9

trial. See Stano v. Dugger, 921 F.2d 1125, 1151 (11th Cir. 1991) (quotation
omitted). He “can show prejudice by demonstrating a reasonable probability that,
but for counsel’s errors, he would not have pleaded guilty and would have insisted
on going to trial.” Lee v. United States, 582 U.S. ___, 137 S. Ct. 1958, 1965
(2017).
Given that a remand is appropriate for further consideration of Carver’s
claims pursuant to Clisby, a ruling on Carver’s appeal of the denial of his motion
for an evidentiary hearing would be premature. As to Ground One, because the
district court failed to address Carver’s ineffective assistance of trial counsel
claims, we cannot say whether the district court determined that the claims were
affirmatively contradicted by the record or otherwise clearly barred on their face.
Therefore we do not have a sufficient record for deciding whether it abused its
discretion in making that determination. See Allen, 611 F.3d at 745. In light of
the Clisby error and undeveloped record as to Ground One, we vacate and remand
for reconsideration of whether an evidentiary hearing is warranted for Carver’s
Ground One claims.
As to Grounds Two and Three, the reasoning for denying an evidentiary
hearing is also unclear. The R&R states “in light of the arguments and record,” the
court did not “see need for a hearing.” But the R&R did not point to specific
evidence in the record that contradicted Carver’s claims of ineffective assistance of
8

App. 10

Case: 14-15769

Date Filed: 01/12/2018

Page: 9 of 9

counsel. We recognize that trial records are “often incomplete or inadequate” for
the purposes of an ineffective assistance claim. Massaro v. United States, 538 U.S.
500, 504–05, 123 S. Ct. 1690, 1694 (2003). And contrary to statements in the
R&R, a guilty plea does not bar Carver’s claims that he received ineffective
assistance of counsel in deciding whether to plead guilty or go to trial. See Lee,
137 S. Ct. at 1965. In his § 2255 motion, Carver said his attorney misinformed
him of the intent requirement and possible defenses he could have pursued for
Count One. He also said he would not have pled guilty if he had been properly
informed. In light of the limited record before us, we cannot say that the “records
of the case conclusively show that the prisoner is entitled to no relief.” 28 U.S.C.
§ 2255(b). We therefore vacate and remand with instructions to fully address
Grounds Two and Three under Strickland in the first instance, and to hold an
evidentiary hearing unless a full consideration of these claims reveals that no
hearing is required.
VACATED AND REMANDED.

9

App. 11

Case 2:12-cv-14353-JEM Document 39 Entered on FLSD Docket 09/19/2019 Page 1 of 2

App. 12

Case 2:12-cv-14353-JEM Document 39 Entered on FLSD Docket 09/19/2019 Page 2 of 2

App. 13

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 1 of 17

App. 14

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 2 of 17

App. 15

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 3 of 17

App. 16

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 4 of 17

App. 17

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 5 of 17

App. 18

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 6 of 17

App. 19

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 7 of 17

App. 20

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 8 of 17

App. 21

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 9 of 17

App. 22

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 10 of 17

App. 23

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 11 of 17

App. 24

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 12 of 17

App. 25

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 13 of 17

App. 26

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 14 of 17

App. 27

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 15 of 17

App. 28

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 16 of 17

App. 29

Case 2:12-cv-14353-JEM Document 37 Entered on FLSD Docket 08/29/2019 Page 17 of 17

App. 30

Case: 19-14615

Date Filed: 04/09/2020

Page: 1 of 23

No. 19-14615-C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

TIMOTHY CARVER,
Petitioner/appellant,
v.
UNITED STATES OF AMERICA,
Respondent/appellee.
On Appeal from the United States District Court
for the Southern District of Florida

APPELLANT’S CORRECTED MOTION
FOR CERTIFICATE OF APPEALABILITY

JACQUELINE E. SHAPIRO, ESQ.
Law Offices of Jacqueline E. Shapiro
Counsel for Timothy Carver
40 N.W. 3rd Street, PH 1
Miami, Florida 33128-1838
Tel. (305) 403-8207
Fax: (305) 403-8209

App. 31

Case: 19-14615

Date Filed: 04/09/2020

Page: 2 of 23

CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT
Timothy Carver v. United States
Case No. 19-14615-C
Appellant files this Certificate of Interested Persons and Corporate Disclosure
Statement, listing the parties and entities interested in this appeal, as required by 11th
Cir. R. 26.1.
Acosta, R. Alexander
Acosta, Diana
Barrist, Lori E.
Brannon, Dave Lee
Caruso, Michael
Carver, Timothy Wayne
Fajardo Orshan, Ariana
Ferrer, Wifredo A.
Greenberg, Benjamin G.
Klugh, Jr., Richard Carroll
Lynch, Jr., Hon. Frank J.
Martinez, Hon. Jose E.
Maynard, Hon. Shaniek M.
C-1 of 2
App. 32

Case: 19-14615

Date Filed: 04/09/2020

Page: 3 of 23

Certificate of Interested Persons And Corporate Disclosure Statement (cont’d)
Timothy Carver v. United States, Case No. 19-14615-C
Schultz, Anne Ruth
Shapiro, Jacqueline E.
Sloman, Jeffrey
Smachetti, Emily M.
Tribuiani, Rinku Talwar

C-2 of 2
App. 33

Case: 19-14615

Date Filed: 04/09/2020

Page: 4 of 23

UNITED STATES COURT OF APPEALS
ELEVENTH CIRCUIT
CASE NO. 19-14615-C
TIMOTHY CARVER,
Petitioner/appellant,
v.
UNITED STATES OF AMERICA,
Respondent/appellee.
/
APPELLANT’S CORRECTED1 MOTION
FOR CERTIFICATE OF APPEALABILITY
Appellant, Timothy Carver, through undersigned counsel, respectfully moves
for a certificate of appealability and in support of the motion states:
This is an appeal from denial of 28 U.S.C. § 2255 relief from a guilty plea
proceeding and two separate trials of counts in a single indictment charging the
defendant with offenses relating to use of the means of interstate commerce in
relation to illegal sexual solicitation. Pursuant to 28 U.S.C. § 2253(c)(1), a movant
obtain a certificate of appealability to appeal the denial of relief under § 2255. The
applicable standard is whether jurists of reason could disagree with the resolution of
1

Appellant has corrected the word count in the Certificate of Compliance found at
page 20 of the motion. No other changes were made to the motion.
1
App. 34

Case: 19-14615

Date Filed: 04/09/2020

Page: 5 of 23

this case, such that the issues warrant appellate review. See Miller-El v. Cockrell, 537
U.S. 322, 337 (2003). The Court should grant a certificate of appealability as to the
following issue:
Whether this Court should reverse and remand for the conducting
of an evidentiary hearing on each of the three grounds raised in
Carver’s 28 U.S.C. § 2255 motion which assert that (1) Carver
received ineffective assistance of trial counsel during the jury trial
on Count Two, (2) Carver received ineffective assistance of plea
counsel when he entered a plea of guilty to Count One, and (3)
Carver’s guilty plea was rendered involuntary by plea counsel’s
misadvice regarding the elements of the offense.
MEMORANDUM OF LAW
On October 3, 2012, Carver filed a motion under 28 U.S.C. § 2255 to vacate
a sentence that resulted from a guilty plea proceeding and two separate trials all
stemming from a single indictment charging him with one count of attempting to use
a computer and the internet to entice a minor in violation of 18 U.S.C. § 2422(b)
(“Count One”) and with one count of committing Count One while being required to
register as a sex offender in violation of 18 U.S.C. § 2260A (“Count Two”). DE:1,
Crim-DE:24. The original § 2255 motion was referred to a magistrate judge who
recommended denying Carver’s motion, a recommendation that was adopted by the
district court. DE:8, 10. Carver appealed the denial of his § 2255 motion, and this

2
App. 35

Case: 19-14615

Date Filed: 04/09/2020

Page: 6 of 23

Court vacated the district court’s decision and remanded “with instructions to fully
address Grounds Two and Three under Strickland in the first instance, and to hold an
evidentiary hearing unless a full consideration of these claims reveals that no hearing
is required.” Carver v. United States, 772 F. App’x 906, 910 (11th Cir. 2018)
(“Carver III”).
On remand, Carver filed a renewed § 2255 motion. DE:34. His motion was
again referred to a magistrate judge who in a Report and Recommendation (“Report”)
recommended denying Carver’s motion without holding an evidentiary hearing.
DE:37. Carver objected to the magistrate’s Report, DE:38, but the district court
adopted the magistrate judge’s recommendation, denied Carver’s motion, and
declined to issue a certificate of appealability. Mr Carver now seeks a certificate of
appealability as to: whether this Court should reverse and remand for the conducting
of an evidentiary hearing on each of the three grounds raised in Carver’s 28 U.S.C.
§ 2255 motion which assert that (1) Carver received ineffective assistance of trial
counsel during the jury trial on Count Two, (2) Carver received ineffective assistance
of plea counsel when he entered a plea of guilty to Count One, and (3) that his guilty
plea was rendered involuntary by plea counsel’s misadvice regarding the elements of
the offense.

3
App. 36

Case: 19-14615

Date Filed: 04/09/2020

Page: 7 of 23

Introduction
Under 28 U.S.C. § 2253(c)(2), if jurists of reason could disagree with the
resolution of this case, such that the issues warrant appellate review, the Court should
grant a COA. See Buck v. Davis, 137 S. Ct. 759, 773 (2017); Miller-El, 537 U.S. at
337–38. The COA should issue if “reasonable jurists could debate whether (or, for
that matter, agree that) the petition should have been resolved in a different manner
or that the issues presented were ‘adequate to deserve encouragement to proceed
further.’” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting Barefoot v. Estelle,
463 U.S. 880, 893 n.4 (1983)); see also Henry v. Dep’t of Corrections, 197 F.3d
1361, 1364 (11th Cir. 1999).
A court “should not decline the application for a COA merely because it
believes the applicant will not demonstrate an entitlement to relief.” Miller-El, 537
U.S. at 337. Because a COA is always sought in the context in which the petitioner
has lost on the merits, the Supreme Court emphasized, “We do not require petitioner
to prove, before the issuance of a COA, that some jurists would grant the petition for
habeas corpus. Indeed, a claim can be debatable even though every jurist of reason
might agree, after the COA has been granted and the case has received full
consideration, that petitioner will not prevail.” Id. at 338.
Courts must resolve doubts about whether to grant a COA in favor of the
4
App. 37

Case: 19-14615

Date Filed: 04/09/2020

Page: 8 of 23

movant. See Lambright v. Stewart, 220 F.3d 1022, 1025 (9th Cir. 2000) (citing
Barefoot, 463 U.S. at 893); Hernandez v. Johnson, 213 F.3d 243, 248 (5th Cir. 2000);
Porter v. Gramley, 112 F.3d 1308, 1312 (7th Cir. 1997). A COA may be denied only
when the court is “‘confident that petitioner’s claim is squarely foreclosed.’”
Lambright, 220 F.3d at 1029 (quoting Barefoot, 463 U.S. at 894).
This Court should reverse the denial of Carver’s § 2255 motion and remand for the
conducting of an evidentiary hearing on each of the three grounds raised by Carver.
Title 28, United States Code, Section 2255 states:
Unless the motion and the files and records of the case conclusively
show that the prisoner is entitled to no relief, the court shall cause notice
thereof to be served upon the United States attorney, grant a prompt
hearing thereon, determine the issues and make findings of fact and
conclusions of law with respect thereto.
The Rules Governing § 2255 Proceedings make clear that this language is
intended to incorporate the standards governing evidentiary hearings in habeas corpus
cases that was articulated by the Supreme Court in Townsend v. Sain, 372 U.S. 293,
312–13 (1963). See Advisory Committee Notes to Rule 8, Rules Governing § 2255
Proceedings (incorporating Advisory Committee Notes to Rule 8 of the Rules
Governing § 2254 Cases). In Townsend, the Supreme Court held that the district court
must hold an evidentiary hearing (1) if the prisoner alleges facts that, if true, would
entitle her to relief; and (2) the relevant facts have not yet been reliably found after
5
App. 38

Case: 19-14615

Date Filed: 04/09/2020

Page: 9 of 23

a full and fair hearing. Id. at 312–313. Actual proof of those facts alleged in the
motion is not required in order to demonstrate entitlement to a hearing. “The law is
clear that, in order to be entitled to an evidentiary hearing, a petitioner need only
allege—not prove—reasonably specific, non-conclusory facts that, if true, would
entitle him to relief.” Aron v. United States, 291 F.3d 708, 715 n.6 (11th Cir. 2002)
(emphasis in original).
Once the movant has alleged facts which, if true, would entitle him to relief,
a hearing is required where: (1) the district court previously did not resolve the merits
of the factual dispute in a full and fair hearing; (2) the district court previously
determined the facts, but that determination is not fairly supported by the record as
a whole; (3) the district court previously determined the facts, but the procedure was
not adequate to afford a full and fair hearing; (4) there is a substantial allegation of
newly discovered evidence; (5) material facts were not adequately developed in prior
federal proceedings; and (6) if, for any other reason, the district court did not provide
the movant with a full and fair hearing on the merits of the factual dispute. See
Townsend, 372 U.S. at 313. See also Fontaine v. United States, 411 U.S. 213, 215
(1973) (relying upon § 2255’s language to reverse summary dismissal and remanding
for hearing where record did not “‘conclusively show’ that under no circumstances
could the petitioner establish facts warranting relief under § 2255”); Aron, 219 F.3d
6
App. 39

Case: 19-14615

Date Filed: 04/09/2020

Page: 10 of 23

at 715 n.6 (“If the [movant’s] allegations are not affirmatively contradicted by the
record and the claims are not patently frivolous, the district court is required to hold
an evidentiary hearing. It is in such a hearing that the [movant] must offer proof”);
Arredondo v. United States, 178 F.3d 778, 782, 788–89 (6th Cir. 1999) (hearing was
required because the movant’s allegations were not “‘contradicted by the record,
inherently incredible, or conclusions rather than statements of fact’”).
As a result, a hearing is generally required if the motion presents a colorable
claim that arises from matters outside the record. See United States v. Magini, 973
F.2d 261, 264 (4th Cir. 1992) (“When a colorable . . . claim is presented, and where
material facts are in dispute involving inconsistencies beyond the record, a hearing
is necessary.”); Shah v. United States, 878 F.2d 1156, 1158 (9th Cir. 1989) (“Where
section 2255 motions have been based on alleged occurrences outside the record, we
have often held that an evidentiary hearing was required.”). As this Court has stated
in § 2255 cases, “we generally prefer that a district court simply hold an evidentiary
hearing.” Rosin v. United States, 786 F.3d 873, 879 (11th Cir. 2015).
In this appeal, each of Carver’s claims is colorable and based on matters
outside the record; reasonable jurists could debate whether the district court erred in
summarily denying Carver’s motion without holding a hearing.

7
App. 40

Case: 19-14615

1.

Date Filed: 04/09/2020

Page: 11 of 23

Carver received ineffective assistance of counsel during his
jury trial on Count Two.

Carver initially pleaded guilty to Count One of the superseding indictment and
proceeded to a bench trial on Count Two. Crim-DE:24, 45–46, 54. He was found
guilty of Count Two and sentenced to a total of 360 months; 240 months for Count
One and the mandatory minimum of 120 months for Count Two, run consecutively.
Crim-DE:66. Carver appealed and this Court confirmed his conviction on Count One,
but vacated and remanded on Count Two because Carver had never waived his right
to a jury trial. United States v. Carver, 348 F. App’x 449, 450–452 (11th Cir. 2009)
(“Carver I”). Next, Carver proceeded to a jury trial on Count Two. Crim-DE:95–96.
His conviction on Count Two at the jury trial was affirmed on direct appeal. United
States v. Carver, 422 F. App’x 796 (11th Cir. 2011) (“Carver II”). In this § 2255
claim, Carver alleges that he received ineffective assistance of counsel at the jury
trial.
In Strickland v. Washington, the Supreme Court established a two-part test to
show ineffective assistance that violates the Sixth Amendment right to counsel: (1)
“that counsel’s performance was deficient,” defined as “representation [that] fell
below an objective standard of reasonableness,” and (2) “that the deficient
performance prejudiced the defense” in that “there is a reasonable probability that, but

8
App. 41

Case: 19-14615

Date Filed: 04/09/2020

Page: 12 of 23

for counsel’s unprofessional errors, the result of the proceeding would have been
different.” 466 U.S. 668, 687–88, 694 (1984). “A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id. at 694.
“[I]t is significant that a petitioner must show only a reasonable probability that
the outcome would have been different; he ‘need not show that counsel’s deficient
conduct more likely than not altered the outcome in the case.’” Brownlee v. Haley,
306 F.3d 1043, 1059–60 (11th Cir. 2002) (quoting Strickland, 466 U.S. at 693); see
DeLuca v. Lord, 77 F.3d 578, 590 (2d Cir. 1996) (“The Strickland test does not
require certainty that the result would have been different.”). “When evaluating this
probability, ‘a court hearing an ineffectiveness claim must consider the totality of the
evidence.’” Brownlee, 306 F.3d at 1060 (quoting Strickland, 466 U.S. at 695).
At the jury trial, Carver’s trial counsel stipulated to the fact that Carver had
previously pleaded guilty to Count One. This stipulation is shocking not only because
committing Count One was one of only two elements the government had to prove
at trial, Crim-DE:99 at 6, but also because Carver was still claiming that he had
involuntarily entered the guilty plea based on plea counsel’s misadvising him
regarding the elements of Count One. The magistrate’s Report concludes that it was
a strategic decision taken by counsel to stipulate to Carver’s guilty plea because it
may have prevented the government’s underlying allegations from being presented
9
App. 42

Case: 19-14615

Date Filed: 04/09/2020

Page: 13 of 23

to the jury. However, it is submitted that failing to contest the legitimacy of Carver’s
guilty plea can never be considered strategic where it was the only way to defend
Carver on that element of Count Two. See Rodriguez v. Young, 906 F.2d 1153, 1161
(7th Cir. 1990) (“Counsel’s decision to forego a motion to suppress was not a
decision that might be considered sound trial strategy”) (citation omitted).
Moreover, in Carver’s § 2255 motion, he alleged that trial counsel unilaterally
abandoned his claim that his plea to Count One was involuntary and that trial counsel
failed to investigate or analyze possible defenses. DE:1 at 5. Thus, while the Report
concludes that trial counsel’s decision to stipulate was strategic, it is not, in fact, clear
that the stipulation was a strategic decision taken after investigating and comparing
possible strategies. There were other strategies available besides stipulating. For
example, counsel could have sought to suppress the prior guilty plea. See United
States v. Cadet, 138 F. App’x 272, 273–75 (11th Cir. 2005) (explaining that an
involuntary conviction cannot be used to enhance a sentence under federal law); see
also United States v. Jordan, 870 F.2d 1310, 1316–18 (7th Cir. 1989) (discussing the
potential that an involuntary plea be suppressed in a subsequent prosecution); United
States v. Custis, 988 F.2d 1355, 1363 (4th Cir. 1993) (explaining that an involuntary
plea may not be used to enhance a sentence under federal law). Or counsel could have
attacked the underlying facts to show the jury that Carver was set up in an unusual
10
App. 43

Case: 19-14615

Date Filed: 04/09/2020

Page: 14 of 23

and absurd sting operation by an undercover detective who was officially
reprimanded for misconduct committed in the same time period as Carver’s arrest.
A hearing is required to determine if trial counsel’s decision to stipulate was
really a strategic move, or whether it was an objectively unreasonable decision that
constitutes ineffective assistance. See Elmore v. Ozmint, 661 F.3d 783, 832–71 (4th
Cir. 2011) (ineffective assistance where counsel stipulated to chain of custody of
evidence without investigation); Kirkpatrick v. Butler, 870 F.2d 276, 283 (5th Cir.
1989) (deficient performance where counsel failed to challenge the admissibility of
evidence); Adams v. Wainwright, 709 F.2d 1443, 1445–46 (11th Cir. 1983) (failure
to reasonably investigate plausible options show that counsel’s decisions were
ineffective and not strategic). Here, reasonable jurists could debate whether trial
counsel’s failure to investigate and pursue any defense whatsoever was ineffective
assistance, and whether it was prejudicial because there would be a reasonable
probability of a different outcome if trial counsel had presented any defense at all
instead of stipulating to his client’s guilt.
Further, trial counsel’s decision not to contest whether Carver was guilty of
Count One effectively deprived Carver of his right to testify by contradicting
everything to which Carver could have testified. See United States v. Teague, 953
F.2d 1525, 1532 (11th Cir. 1992) (“a criminal defendant has a fundamental
11
App. 44

Case: 19-14615

Date Filed: 04/09/2020

Page: 15 of 23

constitutional right to testify in his or her own behalf at trial”) (emphasis in original).
“It is important to remember that while defense counsel serves as an advocate for the
client, it is the client who is the master of his or her own defense.” Id. at 1533. Here,
trial counsel’s decision to stipulate made it impossible for Carver to testify—he
would have had to contradict the stipulation to truly explain to the jury the underlying
facts and why he had been led to enter an involuntary guilty plea. See Gallego v.
United States, 174 F.3d 1196, 1197 (11th Cir. 1999) (a defendant receives ineffective
assistance when his trial counsel prevents him from testifying in his own defense). It
is debatable among jurists of reason whether Carver was functionally denied the right
to testify in his own defense when his trial counsel made an uninformed decision to
stipulate to Carver’s guilt on Count One.
2.

Carver received ineffective assistance from plea counsel
who erroneously led Carver to believe he was guilty.

In May 2008, Carver entered a plea of guilty to Count One of the indictment
on the advice of his counsel. Crim-DE:45. Carver alleges that had he been properly
advised by plea counsel, he would have proceeded to trial on Count One. Notably, his
decision to proceed to trial on Count Two lends credence to his claim that he would
have proceeded to trial on Count One if plea counsel had properly advised him.
Specifically, Carver alleges that his plea counsel misadvised him by not

12
App. 45

Case: 19-14615

Date Filed: 04/09/2020

Page: 16 of 23

explaining to him the elements of an attempt offense, specifically the intent
requirement, under 18 U.S.C. § 2422(b). He also alleges that plea counsel did not
consult with him regarding his defenses to the attempt charge. Had plea counsel
properly advised Carver of the elements of Count One, Carver would not have
believed himself to be guilty—he would have proceeded to trial in order to prove that
he never had the specific intent to entice a minor, and that he was simply engaging
in fantasy talk with an undercover agent who was setting up a sting operation. Plea
counsel’s failure to properly advise Carver on the elements of Count One were
compounded by the fact that the superseding indictment did not expressly state the
elements of an attempt offense, and the government’s summary of the elements of the
offense during the plea colloquy failed to adequately describe an attempt offense. See
Carver I, 348 F. App’x at 450–452 (recognizing the errors in the plea colloquy and
superseding indictment but holding that it did not violate Rule 11).
“The Sixth Amendment guarantees a defendant the effective assistance of
counsel at ‘critical stages of a criminal proceeding,’ including when he enters a guilty
plea.” Lee v. United States, 137 S.Ct. 1958, 1964 (2017) (quoting Lafler v. Cooper,
566 U.S. 156, 165 (2012)); see also Hill v. Lockhart, 474 U.S. 52, 58–59 (1985). A
defendant must establish that the advice he received from counsel was not within the
range of professional advice expected of criminal defense attorneys; advising a
13
App. 46

Case: 19-14615

Date Filed: 04/09/2020

Page: 17 of 23

defendant on the elements of a crime and investigating possible defenses is expected
of a criminal defense attorney even where a client expresses a desire to plead guilty.
See Burt v. Uchtman, 422 F.3d 557, 566–67 (7th Cir. 2005); Savino v. Murray, 82
F.3d 593, 598–99 (4th Cir. 1996); United States v. Frye, 738 F.2d 196, 199 (7th Cir.
1984).
The magistrate’s Report concludes that Carver understood the charge he
pleaded guilty to on the basis of his responses during the plea colloquy and that he
had received documents including the complaint, the initial indictment, and the
superseding indictment. DE:37, at 9–10. This line of reasoning ignores the fact that
this Court has already found that the elements of the offense were not expressly stated
in the superseding indictment or during the plea colloquy. There is simply no way that
the plea colloquy could have been a “panacea for [Carver’s] attorney’s deficient
performance,” when the some of the same errors were made by the district court as
by Carver’s plea counsel. Moore v. Bryant, 348 F.3d 238, 243 (7th Cir. 2003)
(granting habeas relief to defendant who pleaded guilty due to misadvice of his
counsel). Moreover, without knowing what prior advice Carver received from plea
counsel, it is impossible to know how he understood the copy of the superseding
indictment that he acknowledged receiving. Reasonable jurists could debate whether
an evidentiary hearing is necessary to determine whether plea counsel was deficient
14
App. 47

Case: 19-14615

Date Filed: 04/09/2020

Page: 18 of 23

by affirmatively misadvising Carver and whether the flawed plea colloquy and flawed
superseding indictment could possibly have alleviated the misadvice given to Carver
by plea counsel. See United States v. Weeks, 653 F.3d 1188, 1205 (10th Cir. 2011)
(remanding to the district court for an evidentiary hearing where defendant alleged
that he believed himself to be innocent and only entered a guilty plea based on his
counsel’s failure to advise him regarding the elements of the crime).
The Report also misinterprets the Supreme Court’s recent decision in Lee v.
United States, 137 S.Ct. 1958 (2017), in its prejudice analysis. It interprets Lee to
create two categories of ineffective assistance of counsel, each with a separate
prejudice analysis under Strickland: one where counsel misadvises a defendant
regarding the consequences of pleading guilty, and another where counsel’s error
“affects a defendant’s likelihood of success at trial.” Crim-DE:37, at 11. The Report
erroneously concludes that the error which Carver alleges—that plea counsel
misadvised him regarding the elements of the offense—falls into this second category
and that Carver was not prejudiced because he cannot show that he would have been
better off going to trial. Id.
However, the error which Carver alleges does not neatly fall into one or the
other category described in Lee. Carver alleges that counsel misadvised him regarding
the elements of the attempt offense, and that had he been properly advised, Carver
would not have believed himself to be guilty. Thus, regardless of his chance of
15
App. 48

Case: 19-14615

Date Filed: 04/09/2020

Page: 19 of 23

success at trial, Carver would have proceeded to trial because he could not, and
should not, enter a guilty plea when he did not believe himself to be guilty. It is
submitted that where plea counsel is ineffective by misadvising a defendant about the
elements of an offense and what the government would have to prove, such misadvice
is more akin to misadvice regarding the consequences of a plea than to
ineffectiveness affecting success at trial. Thus, the proper test for prejudice under Lee
for circumstances like Carver’s is whether there is a “‘reasonable probability that, but
for counsel’s errors, he would not have pleaded guilty and would have insisted on
going to trial’” Lee, 137 S.Ct. at 1965 (quoting Hill v. Lockhart, 474 U.S. 52, 59
(1985)). At the very least, jurists of reason could debate how Lee should apply to the
type of counsel error that Carver alleges, and this Court should grant a certificate of
appealability to determine this issue.
Here, Carver was prejudiced by counsel’s misadvising him about the elements
of the attempt offense. Had he known the elements, he would have believed himself
to be innocent and would have proceeded to trial. He was prejudiced “by the denial
of the entire judicial proceeding . . . to which he had a right” Lee, 137 S.Ct. at 1965
(quoting Roe v. Flores-Ortega, 528 U.S. 470, 483 (2000)). Carver’s decision to go
to trial on Count Two shows that he was not averse to going to trial even where there
would be substantial difficulties proving his innocence. It is necessary to ascertain the
advice given to Carver by plea counsel because it is the only way to know whether
16
App. 49

Case: 19-14615

Date Filed: 04/09/2020

Page: 20 of 23

plea counsel’s errors caused Carver to believe he was guilty. Plea counsel’s misadvice
to Carver cannot be determined without an evidentiary hearing, and the record does
not otherwise show that he is not entitled to relief. See United States v. Tolliver, 800
F.3d 138, 141–42 (3d Cir. 2015) (requiring an evidentiary hearing where record does
not conclusively show that defendant was not entitled to relief).
3.

Carver’s guilty plea was rendered involuntary due to the
ineffective assistance he received from plea counsel.

On Carver’s direct appeal from his guilty plea, this Court found that “that the
district court fulfilled its Rule 11 obligations,” and rejected Carver’s challenge to the
guilty plea on the basis of the colloquy. Carver I, 348 F. App’x at 451. However, “[A]
plea, even one that complies with Rule 11, cannot be ‘knowing and voluntary’ if it
resulted from ineffective assistance of counsel.” Hurlow v. United States, 726 F.3d
958, 967 (7th Cir. 2013); see also United States v. Goodman, 590 F.2d 705, 710 (8th
Cir. 1979) (“[I]t is well established that compliance with Rule 11 does not act as an
absolute bar to subsequent collateral attack upon the voluntariness of a guilty plea.”).
Here, the magistrate’s Report, after remand, commits the same error as the previous
report and recommendation that was already rejected by this Court when it wrote that
“contrary to statements in the R&R, a guilty plea does not bar Carver’s claims that he
received ineffective assistance of counsel in deciding whether to plead guilty or go

17
App. 50

Case: 19-14615

Date Filed: 04/09/2020

Page: 21 of 23

to trial.”2 Carver III, 722 F. App’x at 910; see Crim-DE:37, at 14. Review of Carver’s
claims on this § 2255 motion entails review of different issues under a different
standard than the claims raised on direct appeal.
On direct appeal, this Court could only consider whether Carver’s guilty plea
was involuntary based on errors of the district court. Now, on collateral review,
Carver’s claims of plea counsel’s ineffectiveness can be considered in determining
whether Carver’s plea was voluntary. However, without knowing the advice or
misadvice given to Carver by plea counsel, his claim that his plea was involuntary
due to his erroneous belief that he had committed the attempt crime and had no
defense cannot fully determined. See, e.g., Tovar Mendoza v. Hatch, 620 F.3d 1261,
1269 (10th Cir. 2010) (finding a defendant’s guilty plea involuntary on collateral
review with the assistance of an evidentiary hearing); Starns v. Franklin, No. 5:07CV-00925 DE 14, 2007 WL 3232190, at *2 (W.D. Okla. Oct. 31, 2007) (ordering an
evidentiary hearing to determine defendant’s claims that he was given misadvice
before his decision to plead guilty). This Court should grant a certificate of
2

The district court again violated Clisby v. Jones, 960 F.2d 925, 935 (11th Cir.
1992) (en banc), by incorrectly finding that Carver is procedurally barred from
claiming that his plea was involuntary due to the ineffective assistance of counsel on
collateral review. In Clisby, this Court issued a directive to district courts to resolve
all the claims presented in a habeas petition. Id. at 937. The district court has still
failed to address whether Carver’s plea was involuntary because of plea counsel’s
ineffectiveness.
18
App. 51

Case: 19-14615

Date Filed: 04/09/2020

Page: 22 of 23

appealability because reasonable jurists could debate whether an evidentiary hearing
is necessary to determine whether plea counsel’s misadvice, in conjunction with the
errors in the superseding indictment and at the plea colloquy, rendered Carver’s plea
to Count One involuntary.
CONCLUSION
A certificate of appealability is warranted because Carver has made a
substantial showing of the deprivation of a constitutional right in three distinct
contexts: ineffective assistance of trial counsel, ineffective assistance of plea counsel,
and an involuntary guilty plea due to misadvice of counsel. It is debatable among
jurists of reason whether Carver is entitled to an evidentiary hearing on all three
grounds raised in his § 2255 motion.
WHEREFORE, the appellant, Timothy Carver, moves for a certificate of
appealability.
Respectfully submitted,
s/ Jacqueline E. Shapiro
JACQUELINE E. SHAPIRO, ESQ.
Attorney for Appellant
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. (305) 403-8207
Fax: (305) 403-8209

19
App. 52

Case: 19-14615

Date Filed: 04/09/2020

Page: 23 of 23

CERTIFICATE OF COMPLIANCE
I CERTIFY that this brief complies with the type-volume limitation of FED. R.
APP. P. 32(a)(7). According to the WordPerfect program on which it is written, the
numbered pages of this motion contain 4,486 words. This document complies with
the typeface requirement of Fed. R. App. P. 32(a)(5) and the type-style requirements
of Fed. R. App. P. 32(a)(6) because the document has been prepared using
WordPerfect in a proportionally spaced typeface with Times New Roman 14-point
font.
s/ Jacqueline E. Shapiro
Jacqueline E. Shapiro, Esq.

20
App. 53

Case: 19-14615

Date Filed: 08/07/2020

Page: 1 of 36

No. 19-14615-C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
TIMOTHY CARVER,
Petitioner/appellant,
v.
UNITED STATES OF AMERICA,
Respondent/appellee.
On Appeal from the United States District Court
for the Southern District of Florida
APPELLANT’S MOTION FOR RECONSIDERATION
OF ORDER DENYING CERTIFICATE OF APPEALABILITY

JACQUELINE E. SHAPIRO, ESQ.
Law Offices of Jacqueline E. Shapiro
Counsel for Timothy Carver
40 N.W. 3rd Street, PH 1
Miami, Florida 33128-1838
Tel. (305) 403-8207
Fax: (305) 403-8209

App. 54

Case: 19-14615

Date Filed: 08/07/2020

Page: 2 of 36

CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT
Timothy Carver v. United States
Case No. 19-14615-C
Appellant files this Certificate of Interested Persons and Corporate Disclosure
Statement, listing the parties and entities interested in this appeal, as required by 11th
Cir. R. 26.1.
Acosta, R. Alexander
Acosta, Diana
Barrist, Lori E.
Brannon, Dave Lee
Caruso, Michael
Carver, Timothy Wayne
Fajardo Orshan, Ariana
Ferrer, Wifredo A.
Greenberg, Benjamin G.
Klugh, Jr., Richard Carroll
Lynch, Jr., Hon. Frank J.
Martinez, Hon. Jose E.
Maynard, Hon. Shaniek M.

C-1 of 2

App. 55

Case: 19-14615

Date Filed: 08/07/2020

Page: 3 of 36

Certificate of Interested Persons and Corporate Disclosure Statement (cont’d)
Timothy Carver v. United States, Case No. 19-14615-C
Schultz, Anne Ruth
Shapiro, Jacqueline E.
Sloman, Jeffrey
Smachetti, Emily M.
Tribuiani, Rinku Talwar

C-2 of 2

App. 56

Case: 19-14615

Date Filed: 08/07/2020

Page: 4 of 36

UNITED STATES COURT OF APPEALS
ELEVENTH CIRCUIT
CASE NO. 19-14615-C
TIMOTHY CARVER,
Petitioner/appellant,
v.
UNITED STATES OF AMERICA,
Respondent/appellee.
/
APPELLANT’S MOTION FOR RECONSIDERATION
OF ORDER DENYING CERTIFICATE OF APPEALABILITY
Appellant, Timothy Carver, through undersigned counsel, respectfully moves
for reconsideration of this Court’s Order of June 17, 2020 (Appendix A, attached),
denying Appellant’s motion for a certificate of appealability. Appellant moved for a
certificate of appealability as to the following issue:
Whether this Court should reverse and remand for the conducting
of an evidentiary hearing on each of the three grounds raised in
Carver’s 28 U.S.C. § 2255 motion, which assert that (1) Carver
received ineffective assistance of trial counsel during the jury trial
on Count Two, (2) Carver received ineffective assistance of plea

1

App. 57

Case: 19-14615

Date Filed: 08/07/2020

Page: 5 of 36

counsel when he entered a plea of guilty to Count One, and (3)
Carver’s guilty plea was rendered involuntary by plea counsel’s
misadvice regarding the elements of the offense.
See Corrected Motion for Certificate of Appealability (Appendix B, attached) at 1–20
(setting forth factual background, standards of review of COA motions, and grounds
for COA). This Court should reconsider its initial decision for the reasons stated in
this motion and the corrected COA motion.
I.

THIS COURT SHOULD RECONSIDER WHETHER
REASONABLE JURISTS COULD DEBATE WHETHER THE
DISTRICT COURT COMMITTED CLISBY ERROR BY FAILING
TO CONSIDER CARVER’S CLAIM THAT HIS GUILTY PLEA
WAS RENDERED INVOLUNTARY BY THE INEFFECTIVE
ASSISTANCE OF PLEA COUNSEL.
In Clisby v. Jones, this Court directed district courts to consider and resolve

each and every claim raised in a habeas petition. 960 F.2d 925, 935–36 (11th Cir.
1992) (en banc). This Court held that it would “vacate the district court’s judgment
without prejudice and remand the case for consideration of all remaining claims
whenever the district court has not resolved all such claims” in a habeas petition. Id.
at 938; see also Rhode v. United States, 583 F.3d 1289, 1291 (11th Cir. 2009) (per
curiam) (applying Clisby to § 2255 motions).
In Carver’s first appeal from the denial of his § 2255 motion, this Court vacated
2

App. 58

Case: 19-14615

Date Filed: 08/07/2020

Page: 6 of 36

the district court’s decision and remanded “with instructions to fully address Grounds
Two and Three under Strickland in the first instance, and to hold an evidentiary
hearing unless a full consideration of these claims reveals that no hearing is required.”
Carver v. United States, 772 F. App’x 906, 910 (11th Cir. 2018) (“Carver III”).
However, on remand, the district court again failed to consider Ground Three of
Carver’s renewed § 2255 motion, which asserts that his guilty plea was involuntary
because of the ineffective assistance of plea counsel whose misadvice led Carver to
erroneously believe that he was guilty of Count One. DE:34 at 18–20.
The Report and Recommendation adopted by the district court disposes of
Ground Three by analyzing the plea colloquy and concluding that “voluntariness of
Carver’s guilty plea to Count One was previously decided during his direct appeal and
cannot be re-litigated before this Court.” DE:37 at 13–15. The district court’s refusal
to consider Carver’s claim that his guilty plea was rendered involuntary due to
ineffective assistance of counsel is Clisby error because this claim is distinct from the
issue decided on direct appeal, which was whether the district court committed Rule
11 error. See United States v. Carver, 348 F. App’x 449, 450 (11th Cir. 2009)
(“Carver I”). It has been recognized by this Court and others that “[t]he fact that the
trial court complied with Fed. R. Crim. P. 11 does not guarantee that the guilty plea
is constitutionally valid.” Downs-Morgan v. United States, 765 F.2d 1534, 1538 n.9
3

App. 59

Case: 19-14615

Date Filed: 08/07/2020

Page: 7 of 36

(11th Cir. 1985). “An accused who has not received reasonably effective assistance
from counsel in deciding to plead guilty cannot be bound by his plea because a plea
of guilty is valid only if made intelligently and voluntarily.” Id. (internal quotation
marks and citations omitted); see also United States v. Broce, 488 U.S. 563, 574
(1989) (holding that “[a] failure by counsel to provide advice may form the basis of
a claim of ineffective assistance of counsel” even where there is Rule 11 compliance);
Hurlow v. United States, 726 F.3d 958, 967 (7th Cir. 2013) (“a plea, even one that
complies with Rule 11, cannot be ‘knowing and voluntary’ if it resulted from
ineffective assistance of counsel”); United States v. Yates, 324 F. App’x 277, 278 (4th
Cir. 2009) (recognizing that a claim of ineffective assistance of counsel as it relates
to a guilty plea is different than a claim related to Rule 11 compliance); United States
v. Sanderson, 595 F.2d 1021, 1021 (5th Cir. 1979) (“It is axiomatic that a guilty plea
lacks the required voluntariness and understanding if entered on advice of counsel that
fails to meet the minimum standards of effectiveness derived from the Sixth
Amendment”) (internal quotation marks and citations omitted).
Carver’s claim that his guilty plea was not knowing and voluntary because of
plea counsel’s ineffectiveness has not yet been addressed by the district court. The
district court’s conclusion that Carver’s guilty plea to Count One was voluntary is
Clisby error because the district court did not consider the substance of Carver’s actual
4

App. 60

Case: 19-14615

Date Filed: 08/07/2020

Page: 8 of 36

claim. Further, because Carver’s claim of ineffective assistance of counsel necessarily
rests on matters outside the record, this Court should reconsider whether to grant a
certificate of appealability because reasonable jurists could debate whether an
evidentiary hearing is necessary to determine if the ineffective assistance of plea
counsel rendered Carver’s plea to Count One involuntary.1
II.

GIVEN ITS RECENT DECISION IN BUHS v. SEC’Y, FLA. DEP’T
OF CORR., THIS COURT SHOULD RECONSIDER WHETHER
REASONABLE JURISTS COULD DEBATE WHETHER THE
DISTRICT COURT PROPERLY APPLIED LEE v. UNITED
STATES WHEN IT DETERMINED WHICH PREJUDICE
STANDARD TO USE IN ANALYZING APPELLANT’S SECOND
INEFFECTIVE ASSISTANCE OF COUNSEL CLAIM.
This Court should reconsider its denial of a certificate of appealability because

reasonable jurists could debate whether the district court’s application of the Supreme
Court’s decision in Lee v. United States, 137 S. Ct. 1958 (2017), is flawed and
whether it is at odds with this Court’s recent decision in Buhs v. Sec’y, Fla. Dep’t of
Corr., 809 F. App’x 619 (11th Cir. 2020). In the adopted Report and
1

A COA is required when “reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved in a different manner or that
the issues presented were adequate to deserve encouragement to proceed further.”
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (internal quotation omitted). And an
evidentiary hearing is generally required if a habeas motion presents a colorable claim
that arises from matters outside the record. See Advisory Committee Notes to Rule 8,
Rules Governing § 2255 Proceedings; Townsend v. Sain, 372 U.S. 293, 312–13
(1963); Aron v. United States, 291 F.3d 708, 715 n.6 (11th Cir. 2002).
5

App. 61

Case: 19-14615

Date Filed: 08/07/2020

Page: 9 of 36

Recommendation, the district court wrote:
In Lee, the Supreme Court recognized two types of errors that counsel
can make in representing a defendant who is deciding whether to plead
guilty. The first—and the one that was at issue in Lee—is an error which
affects a defendant’s understanding of the consequences of pleading
guilty. Lee, 137 S.Ct. at 1965. Lee, for example, involved counsel’s
failure to advise the defendant that he faced mandatory deportation if
convicted. Similarly, in Hill v. Lockhart, [474 U.S. 52 (1985),] the error
involved erroneous advice as to the defendant’s eligibility for parole.
When this type of error is involved, the question is not “how a
hypothetical trial would have played out absent the error,” but “whether
there was an adequate showing that the defendant, properly advised,
would have opted to go to trial.” Lee, 137 S. Ct. at 1965. The second
type of error—and the one that is at issue here—affects a defendant’s
likelihood of success at trial. Id. Where the prospect of success at trial is
at issue, a defendant must show he would have been better off going to
trial. Id.
DE:37 at 10–11. The district court denied Carver’s habeas petition on Ground Two
because it concluded that he could not have shown that he would have been better off
going to trial. However, the district court erred in viewing Carver’s claim of
ineffective assistance as one where he was misadvised about his likelihood of success
at trial and thus erred in its choice of a standard for analyzing prejudice. Instead,
Carver alleges that plea counsel failed to consult with him about the elements of
Count One of the superseding indictment and that, had he understood the elements of

6

App. 62

Case: 19-14615

Date Filed: 08/07/2020

Page: 10 of 36

the attempt offense, he would have believed that he was actually innocent.2 DE:34 at
15–18.
The impact of counsel’s advice on a defendant’s belief about their guilt or
innocence does not neatly fit into the two categories created by the district court in its
analysis of Lee. Instead, Buhs v. Sec’y, Fla. Dep’t of Corr., a decision handed down
by this Court on April 15, 2020 (after the filing of Carver’s Corrected Motion for a
Certificate of Appealability on April 9, 2020), shows how a claim such as Carver’s
should be handled.

Buhs involved a defendant who alleged that he received

ineffective assistance from counsel who failed to advise him about a possible
affirmative defense. This Court analyzed the prejudice under Lee by asking if
defendant Buhs would have opted to go to trial but for his counsel’s deficient advice.
809 F. App’x at 634. Considering contemporaneous evidence that showed that Buhs
would have gone to trial but for the deficient advice, this Court concluded that “Mr.
Buhs has sufficiently alleged Strickland prejudice, as elucidated by Hill and Lee, and
should be able to develop the record further at an evidentiary hearing” and remanded
the case for an evidentiary hearing. Id. at 634–35.

2

Plea counsel’s failure to properly advise Carver on the elements of Count One was
compounded by the fact that the superseding indictment did not expressly state the
elements of an attempt offense, and the government’s summary of the elements of the
offense during the plea colloquy failed to adequately describe an attempt offense. See
Carver I, 348 F. App’x at 450–52 (recognizing the errors in the plea colloquy and
superseding indictment).
7
App. 63

Case: 19-14615

Date Filed: 08/07/2020

Page: 11 of 36

Carver’s claim is identical to that in Buhs in that the alleged deficient advice
given by counsel influenced his understanding of whether he was innocent or not. As
in Buhs, it is submitted that the correct prejudice analysis is whether there is a
“‘reasonable probability that, but for counsel’s errors,’” Carver “‘would not have
pleaded guilty and would have insisted on going to trial’” Lee, 137 S.Ct. at 1965
(quoting Hill v. Lockhart, 474 U.S. 52, 59 (1985)). And there is contemporaneous
evidence that Carver would have chosen to go to trial: his decision to go to trial on
Count Two of the superseding indictment shows that he was not averse to going to
trial even where there would be substantial difficulties proving his innocence.
In light of its recent decision in Buhs, this Court should reconsider whether
reasonable jurists could debate whether the district court properly interpreted and
applied the Supreme Court’s decision in Lee to the facts of Carver’s habeas petition
and whether Carver should be granted an evidentiary hearing.
WHEREFORE, Appellant Timothy Carver moves for reconsideration of the
order denying a certificate of appealability.
Respectfully submitted,
s/ Jacqueline E. Shapiro
JACQUELINE E. SHAPIRO, ESQ.
Attorney for Appellant
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. (305) 403-8207
Fax: (305) 403-8209
8
App. 64

Case: 19-14615

Date Filed: 08/07/2020

Page: 12 of 36

CERTIFICATE OF COMPLIANCE
I CERTIFY that this brief complies with the type-volume limitation of FED. R.
APP. P. 32(a)(7). According to the WordPerfect program on which it is written, the
numbered pages of this motion contain 1,865 words. This document complies with
the typeface requirement of Fed. R. App. P. 32(a)(5) and the type-style requirements
of Fed. R. App. P. 32(a)(6) because the document has been prepared using
WordPerfect in a proportionally spaced typeface with Times New Roman 14-point
font.
s/ Jacqueline E. Shapiro
Jacqueline E. Shapiro, Esq.

9
App. 65

